LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 31, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-439:

CTIA - THE WIRELESS ASSOCIATION V. THE CITY OF BERKELEY,
CALIFORNIA, AND CHRISTINE DANIEL, CITY MANAGER OF
BERKELEY, CALIFORNIA, IN HER OFFICIAL CAPACITY

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Amicus Curiae Association of National Advertisers, Inc., on October 31, 2019,
I caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioner and Respondents:
PETITIONER:
Theodore B. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8668
tolson@gibsondunn.com

RESPONDENTS:
Lawrence Lessig
Harvard Law School
1563 Massachusetts Avenue
Cambridge, MA 02138
(617) 496-8853
lessig@law.harvard.edu

This service was effected by depositing three copies of the Brief of Amicus Curiae
Association of National Advertisers, Inc. in Support of Petitioner in an official “first
class mail” receptacle of the United States Post Office as well as by transmitting a
digital copy via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

